           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review on the                                   Date:    April 22, 2014
           Single Audit of the National Railroad Passenger
           Corporation and Subsidiaries (Amtrak)
           Report No. QC-2014-038


  From:    George E. Banks, IV                                                       Reply to
                                                                                     Attn. of:   JA-20
           Program Director for Single Audit

    To:    Associate Administrator, FRA,
            Office of Financial Management and Administration


           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the National Railroad Passenger Corporation and Subsidiaries
           (Amtrak). This report presents the results of our Quality Control Review (QCR)
           on the DOT’s major grant program included in the single audit of Amtrak
           performed by Ernst & Young LLP (E&Y) for Amtrak’s fiscal year ended
           September 30, 2012. During this period, Amtrak expended approximately
           $1.7 billion from DOT grant programs, as shown on the attached Schedule of
           Expenditures of Federal Awards. E&Y determined that DOT’s major program was
           the National Railroad Passenger Corporation Grants.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           E&Y rendered an unqualified opinion on Amtrak’s financial statements and a
           qualified opinion on compliance with DOT’s major program requirements for the
           National Railroad Passenger Corporation Grants. However, E&Y did not question
           any cost affecting the National Railroad Passenger Corporation Grants, but did
           make recommendations to correct internal and compliance deficiencies that affect
           the Federal Railroad Administration. 1

           1
            We advised FRA of these deficiencies in a separate memorandum. The single audit report issued by Ernst & Young
           LLP is available upon request to singleauditrequest@oig.dot.gov.
                                                                                 2
SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied
with the Single Audit Act of 1984, as amended, and OMB Circular A-133; and
(2) the extent to which we could rely on the auditors’ work on DOT’s major
program, the National Railroad Passenger Corporation Grants.

RESULTS

We determined that E&Y’s audit work was Acceptable with Deficiencies, and
therefore, generally met the requirements of the Single Audit Act, OMB Circular
A-133, and DOT’s major program. We found nothing to indicate that E&Y’s
opinion on DOT’s major program was inappropriate or unreliable.

While the deficiencies we identified in the audit documentation need to be
corrected in future audits, we determined that these deficiencies did not alter the
overall results of the audit report. The deficiencies are related to:

American Recovery and Reinvestment Act (ARRA) Buy America – E&Y did
not perform compliance testing on the Buy America requirement for the ARRA
funded construction projects.

Suspension and Debarment – E&Y did not perform sufficient compliance testing
on the suspension and debarment requirement for covered transactions greater than
$25,000 but less than $100,000.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

cc: Audit Liaison, FRA, RAD-41
    Audit Liaison, OST, M-1
    Chief Financial Officer, Amtrak
    Partner, E&Y
                                    National Rai lroad Passenger Corporation and Subsidiaries
                                                           (AMTRAK)
                                            Schedu le ofExpenditures of Federal Awards
                                                       Year Ended September 30, 20 12
                                                          (In tho usands of do llars)
                                                                                                Grant or Pass-T hrough
                                                                                Federa l CFDA     Entity Identifying       Federal
Federal Gr antor/Pass-Through G rantor/ Program or C luster Title                  Number              Number            Expenditures

U.S. Department of Transportation:
 Direct Awards:
 ARRA- National Railroad Passenger Corporation Grants                              20.315                                $           920
 National Railroad Passenger Corporation Grants                                    20.3 15                                    1.685,655
 ARRA - High-Speed Rail Corridors and Intercity                                    20.3 19                                         4.299
 Railroad Safety                                                                   20.30 1                                            28
 Railroad Safety Technology Grants                                                 20.32 1                                             2
                                                           Subtotal                                                           I .690.904
 Pass-Through Illinois Commerce Commission:
  Passenger Rai l Service - Capital Assistance Grants
    Rai lroad Research and Development                                             20.3 13           007PEERS I                       2
                                       Total U.S. Department ofTransportation                                                 1.690,906
U.S. Department of Homeland Security:
 Direct Awards:
 ARRA: Rail and Transit Security Grant Program                                     97. 113                                        2.890
  Rail and Transit Security Grant Program                                          97.075                                        21.940
 National Explos ives Detection Canine Team Program                                97.072                                           700
 Sec uring Critical Unde rground Infrastructure Pilot Program                      97.129                                           877
                                  Total U.S. Department of Homeland Security                                                     26.407
U.S . Department of J ustice:
 Direct Awards:
 Equitable Sharing Program                                                         16.922                                         1,96 1
                                                                                                                         $   1.7 19,274
See accom panying notes to schedule of expenditures of federal awards.




68                                                                                                                           1305- I085548
